CERTIFICATE OF SERVICE
I, Edward Davis, hereby certify that on this / lo h, day of
2021, I did in fact hand-delivered a true and correct
copy of this Reply Motion, to the U.S. Penitentiary Prison
Mailroom Staff, as provided by the [MAILBOX RULE] pursuant to
HOUSTON V. LACK, 487 U.S. 266 (1988), to be U.S. Mailed by the
method indicated to all counsel of record lsited below, including
this Honorable U.S. Supreme Court Clerk's Office:

(U.S. FIRST CLASS MAIL)
ELIZABETH B. PRELOGAR
ACTING SOLICITOR GENERAL
COUNSEL OF RECORD
DEPARTMENT OF JUSTICE
WASHINGTON, D.C. 20530-0001

